                                 AUDIT REPORT
Evaluation of the Commission’s
  Implementation of E-FOIA
                March 20, 2001




                                 OIG-AR-01-01
March 20, 2001

TO: THE COMMISSION

We hereby submit Audit Report No. OIG-AR-01-01, Evaluation of the
Commission’s Implementation of E-FOIA, for the Commission’s
implementation of our recommendations.

The Freedom of Information Act (FOIA) was enacted in 1966 to provide the
public with greater access to information from the Federal Government. The
Electronic Freedom of Information Act Amendments of 1996 (E-FOIA)
amended FOIA to provide greater access to Federal Government information
through electronic means.

The objective of this audit was to evaluate the Commission’s implementation
of E-FOIA and to identify any areas for improvement of the Commission’s
processes consistent with the intent of E-FOIA. To accomplish this objective,
we analyzed Commission procedures for processing FOIA requests and
developing annual reports and compared them to requirements of the FOIA to
determine the adequacy of those procedures. We also determined Commission
compliance with FOIA provisions to “currently publish” in the Federal
Register basic information on its activities. We also reviewed the contents of
the electronic reading room and compared that to information requested in
FOIA requests and a listing of USITC Directives and publications. In
addition, we identified and reviewed prior audit coverage of the
implementation of the FOIA.

We found that the Commission was in general compliance with FOIA as
amended by E-FOIA.

We made several recommendations to improve the Commission’s E-FOIA
program. These recommendations dealt with publication of more details on
information available electronically from the Commission, improved
processing of FOIA requests, better accounting and reporting of FOIA
requests, and establishment of a capability for online filing and acceptance of
FOIA requests.
                                        OIG-AR-01-01




Audit Report No. OIG-AR-01-01

       EVALUATION

          OF THE

  COMMISSION==S E-FOIA

       March 20, 2001




                                 Office of Inspector General
                        U.S. International Trade Commission
                                                                                                         OIG-AR-01-01




                                          TABLE OF CONTENTS



                                                                                                                    PAGE



I.      BACKGROUND................................................................................................. 1

II.    OBJECTIVE......................................................................................................... 2

III.   METHODOLOGY AND SCOPE......................................................................... 2

IV.     FINDINGS .......................................................................................................... 3

        A. IMPLEMENTATION OF FOIA SUBSECTION (a)(1)................................. 3

        B. IMPLEMENTATION OF FOIA SUBSECTION (a)(2).................................. 3

        C. IMPLEMENTATION OF OTHER FOIA PROVISIONS............................... 4

        D. OTHER RELATED MATTERS.................................................................... 7

V.      SUMMARY OF CONCLUSIONS AND RECOMMENDATIONS ..................... 8

Appendix A - E-FOIA Requirements and Commission Compliance

Appendix B – Memoranda from the Secretary to the Commission, dated March 2, 2001
(SE-Y-004) and General Counsel, dated February 27, 2001 (GC-Y-059) to the Chairman




                                                                                        Office of Inspector General
                                                                               U.S. International Trade Commission
                                                                    OIG-AR-01-01


I.      BACKGROUND

The U.S. International Trade Commission (Commission) is an independent, quasi-judicial
federal agency that provides trade expertise to both the legislative and executive branches
of the government. The Commission determines the impact of imports on U.S. industries,
and directs action against certain unfair trade practices, such as dumping of foreign
products in U.S. markets, excess subsidies of foreign products, and infringement by
foreign entities on U.S. intellectual property rights. Commission analysts and economists
investigate and publish reports on U.S. industries and the global trends that affect them.

The Freedom of Information Act (the FOIA) 5 U.S.C. 552, was enacted in 1966 (Public
Law 89-554) to require agencies of the Federal Government to make agency information
available to the public, subject to specified exemptions, for any purpose. The FOIA
required federal agencies to make certain information on agency rules, opinions, orders,
records, and proceedings, available to the public for public inspection and copying.
Subsections (SS) (a) (1) through (a) (3) of the FOIA contain three information disclosure
provisions. SS (a) (1) requires disclosure in the Federal Register of basic information
regarding the transaction of agency business. SS (a) (2) requires that certain types of
records be available for public inspection and copying, commonly referred to as the
“reading room” requirement. SS (a) (3) provides that all records not available under SS
(a)(1) or (a)(2) or exempt from mandatory disclosure, or excluded from disclosure, are
subject to disclosure upon an agency’s receipt of a proper FOIA request from any person.
SS (a)(1) and (a)(2) are commonly referred to as the “affirmative disclosure” provisions
of the FOIA.

The FOIA was amended by Public Law 104-231, popularly known as the “Electronic
Freedom of Information Act Amendments of 1996” (E-FOIA). The amendment required
agencies to: (1) Make all SS (a)(2) (reading room) records created on or after November
1, 1996 available electronically by November 1, 1997; (2) Establish a new reading room
category of records; (3) Submit reports annually covering the preceding fiscal year; (4)
Prepare and make publicly available upon request, reference material or a guide for
requesting records or information from the agency; (5) Promulgate regulations for
expedited processing of requests; and (6) Ensure that regulations provide for notice of
determination to provide expedited processing within 10 days. In addition, E-FOIA
defined a record to include an electronic format.

The Department of Justice has established the Office of Information and Privacy to
advise federal offices on the interpretation and implementation of FOIA. The Office
provides counseling services, publishes a quarterly newsletter on FOIA matters, publishes
an index of FOIA cases, issues policy memoranda on major FOIA cases, and issues
policy memorandums on major FOIA issues.

The General Accounting Office (GAO) in “Freedom of Information Act- Noncompliance
With Affirmative Disclosure Provisions” GAO/GGD-86-68, April 1986, reported that 14
of 25 agencies reviewed had not fully complied with FOIA (a)(1) requirements and 15 of

                                                              Office of Inspector General
                                                       U.S. International Trade Commission
                                                                              OIG-AR-01-01
25 had not complied with FOIA (a)(2) provisions. The audit was conducted at the request
of the Chairman, House Subcommittee on Government Information, Justice, and
Agriculture, Committee on Government Operations. The Commission was not one of the
25 agencies reviewed by GAO.

II.    OBJECTIVE

The objective of the audit was to evaluate the Commission’s implementation of E-FOIA
in compliance with existing and amended laws, regulations, and directives governing the
availability to the public of Commission records, and to identify areas for improving
Commission processes.

III.   METHODOLOGY AND SCOPE

We engaged Leon Snead & Company, P.C. to assist in conducting this audit.

We conducted the audit from October 17, 2000 through January 11, 2001 at the
Commission’s facility in Washington D.C. We interviewed Commission officials who
were responsible for managing and processing FOIA requests and for reporting results of
the Commission’s FOIA program to the Department of Justice in the annual report. We
also discussed FOIA policy issues with officials from the Office of Information and
Privacy, Department of Justice.

We analyzed Commission procedures for processing FOIA requests and developing
annual reports and compared them to requirements of the FOIA to determine the
adequacy of those procedures. We reviewed FOIA request case files received during
FY1998 through FY2000 to determine the date the request was received, date of response
to requester, status of release of information, exemptions claimed, fees charged, the
subject of the request, the general condition of the files and whether or not established
procedures were followed.

We determined Commission compliance with FOIA provisions to “currently publish” in
the Federal Register basic information on its activities. We also reviewed the contents of
the electronic reading room and compared that to information requested in FOIA requests
and a listing of USITC Directives and publications. In addition, we identified and
reviewed prior audit coverage of the implementation of the FOIA.

We conducted the audit in accordance with Government Auditing Standards., 1994
version, as revised, promulgated by the Comptroller General of the United States.




                                            2                Office of Inspector General
                                                          U.S. International Trade Commission
                                                                              OIG-AR-01-01


IV.    FINDINGS

       A.      IMPLEMENTATION OF FOIA SUBSECTION (a)(1)

Subsection (a)(1) requires that each agency shall separately state and currently publish in
the Federal Register descriptions of its organization, the procedures to be used to obtain
information, procedures established to accomplish agency functions, and regulations
adopted as authorized by law. The Office of Information and Privacy of the Department
of Justice has issued guidance on publication requirements because of uncertainty with
the term “currently publish” used in the FOIA.

The guidance contained in “The Automatic Disclosure Provisions of FOIA: Subsections
(a)(1) &(a)(2)” states that agencies should publish Subsection (a)(1) information in the
Federal Register at least quarterly. Officials from the Office of Information and Privacy
told us that agencies with no field offices or major separate departments and processing a
limited number of FOIA requests could publish on a semi-annual or annual basis unless
the required information changed significantly.

Our review of material published by the Commission in the Federal Register showed that
several articles were published addressing FOIA. However, the articles were published
on an irregular basis and did not always include the information required by FOIA
Subsection (a)(1). Publication of the notices in the Federal Register annually will bring
USITC into compliance with FOIA and support the concept of government openness and
accountability underlying the FOIA. In addition, the inclusion of procedures for
accessing materials available electronically may result in fewer formal written FOIA
requests.

Recommendation 1 We recommend that the Office of the Secretary publish information
                 required by FOIA Subsection (a)(1) in the Federal Register
                 annually. Information on the availability of the web site and its
                 contents should be included.

       B.      IMPLEMENTATION OF FOIA SUBSECTION (a)(2)

Subsection (a)(2) requires agencies to make certain materials available for public
inspection and copying unless the materials are promptly published and copies offered for
sale. The materials to be made available include final opinions and orders made in the
adjudication of cases, statements of policy and interpretation adopted by the agency but
not published in the Federal Register, and administrative staff manuals and instructions to
staff that pertain to the public. This is popularly called the reading room requirement.

The E-FOIA amendment created a fourth category of record by establishing a
requirement that those records that were requested and released under Subsection (a)(3)
(discussed in the section below), be made available in reading rooms if the records are
likely to become subject to subsequent requests. The E-FOIA also requires agencies to
make reading room records created after November 1, 1996 available by electronic
means.
                                            3                Office of Inspector General
                                                          U.S. International Trade Commission
                                                                               OIG-AR-01-01


               The Commission’s Reading Room Records

Information that E-FOIA requires to be electronically published is contained on the
Commission’s web site, which serves as an electronic reading room. A review of FOIA
requests for fiscal year (FY) 1998 through FY2000 indicates requests for the same
information decreased after the information was placed on the web site. For example,
during FY1998, 17 requests for names of personnel with IMPAC cards were received.
During FY2000, one request was received. As required by E-FOIA, the reference
material or guide for requesting records or information is on the web site.

Our review of FOIA requests did not indicate that there was information that should have
been included in the reading room that was not included. We did find that formal requests
were being made for information that was available on the web site. This suggests that
making the public aware of the web site and the information on it would result in fewer
FOIA requests. Implementation of the recommendation regarding publication in the
Federal Register will help make the public aware of the web site and the information on
it.

Similarly, our review of Commission published documents and directives did not reveal
any that appeared to be reading room materials that were not included in the reading
room. Many of the documents published by the Commission contain confidential
business information that cannot be released to the public.

       C.      IMPLEMENTATION OF OTHER FOIA PROVISIONS

FOIA Subsection (a)(3) requires that, except for information that is made available under
subsection (a)(1) and (a)(2), each agency upon receiving a request for records which
reasonably describes the record and is made in accordance with published rules stating
the time, place, fees (if any), and procedures to be followed, shall make the records
promptly available to any person. Subsection (a)(4) requires each agency to develop
regulations specifying the fees applicable to the processing of FOIA requests. Section (b)
of the FOIA provides for 9 categories of information that are exempt from disclosure.

The E-FOIA amendment established 20 working days as time in which to respond to a
FOIA request and provisions allowing the requester to be notified of unusual
circumstances requiring additional time for processing not to exceed 10 working days. In
addition, the E-FOIA amendment revised the annual report to cover the preceding fiscal
year and specified the information that would be included in the report.

During FY1998 through FY2000, the Commission processed 210 FOIA requests. We
reviewed the FOIA request files to determine (1) if the response was made within 20
working days, (2) if the information requested was released, (3) the subject of the request,
and (4) if fees charged for search and duplication were consistent with FOIA provisions.
Overall, we found the case files to be complete and well maintained. The results of our
review of the case files are provided below.


                                             4                Office of Inspector General
                                                           U.S. International Trade Commission
                                                                              OIG-AR-01-01


               1.     Timeliness of Responses

Our analysis of the 210 FOIA case files showed that responses to 4, or approximately
2%, of requests were sent 3-5 days after the 20 working day period, specified by the
FOIA, had expired. The files for these cases do not contain information that would
explain the delays. However, it was obvious from our review of other files that
significant effort is made to understand what is being requested through the use of written
correspondence, e-mail, and telephone conversations.

Recommendation 2 We recommend that the Office of the Secretary notify the requester
                 of circumstances requiring additional time beyond 20 working
                 days and document the reasons in the file.

               2.     Release of information

For the 210 FOIA requests received during the review period, information was provided
for 122 of them to the extent the information was available, no information was provided
for 61 because the subject was outside the scope of Commission activities. The
Commission claimed exemptions for 17, and 10 were withdrawn.

Our review of the 210 FOIA case files showed that for 122 of the requests the
information requested was provided to the extent that it was available in the Commission.
In those cases, the response to the requester included the information available and an
explanation of the information not provided. It was clear that some of the information
requested was not germane to the Commission. The case files showed that 37 of the
requests were for confidential business information (CBI).

For 61 requests no information was provided because the subject matter was outside the
scope of Commission activities. For example, in this category were requests on status of
visa applications, missing persons, information on trade issues for which no
documentation was available, and requests for information on officials that were
candidates for public office. Making known the availability of the web site and the
information on it may result in fewer of these types of requests. See recommendation1
above.

On 17 requests, exemptions were claimed to deny release of the information. Part of the
information was released for 9 of these cases. Our review of the exemptions used to deny
release of the information showed that they were appropriate and complied with
provisions of the FOIA. Four requests were denied because the information was for CBI.

Ten requests were withdrawn after written or verbal communications with the requester.
Several of these concerned internal investigations.




                                            5                Office of Inspector General
                                                          U.S. International Trade Commission
                                                                               OIG-AR-01-01


              3.      Subject of requests

We assigned each of the 210 FOIA requests received during the period reviewed to one
of seven request categories. The subject categories are subjective because of the diverse
nature of the requests and lack of sufficient information in all cases needed to determine
the intended use of the information. Listed below are the subject categories, a brief
description of the subject, and number of requests within the category:

       • Commission Documents - 97 or 46 %.
       Documents, reports, and studies on international trade issues. During FY1999, 61
       requests in this category were received. Over half (37) was for CBI concerning a
       major investigation of trade in cement.

       • Commercial Interest - 40 or 19%.
       Related to potential sales to the Commission.

       • Media - 26 or 12%.
       Requests for information on candidates for political office.

       • Other Corporations and Individuals - 19 or 9%.
       Information on corporations or individuals not included in other categories.

       • FOIA Program - 14 or approximately 7%.
        Information on the Commission’s FOIA program, FOIA request logs, and related
       material.

       • Personnel - 12 or about 5 %.
       Information on the Commission’s employees and internal investigations.

       • Unknown - 2 or less then 1%.
       Subject of the request was not clear.

              4.      FOIA Request Processing Fees

The FOIA prescribes that fees charged for processing requests conform to the Uniform
Freedom of Information Act Fee Schedule and Guidelines developed by the Office of
Management and Budget (OMB). USITC rules, as stated in 19 CFR 201.20, fully
implement the requirements of FOIA and the OMB guidelines.

The E-FOIA amendment requires that total fees collected be reported in the annual report
to the Department of Justice. Our review showed a discrepancy between the amount of
fees reported to the Department of Justice, the amount received in the Commission’s
Office of Finance, and the amount billed to requesters in the case files. For FY1999, the
Commission reported to the Department of Justice FOIA fee collections of $1,521.50, the
Office of Finance listed receipts from FOIA fees of $3,102.32, and the case files showed
billings or fee assessments of $2,504.10. Similarly in FY1998, $817 in collections was

                                               6              Office of Inspector General
                                                           U.S. International Trade Commission
                                                                              OIG-AR-01-01


reported to the Department of Justice, $1,144 was reported as received by the Office of
Finance, and the case files showed billings of $1,354.30.

The existing procedures require that fees be entered into a FOIA master file as they are
assessed or received. The entries in the master file are the basis for developing the
annual report to the Department of Justice. Our analysis of Office of Finance fee receipts
showed collection of fees that were not reflected in the FOIA master file. The personnel
responsible for maintaining the case files stated that the check or related documentation
may have been sent directly to the Office of Finance before a copy was made for
inclusion in the case files or the master file updated. We were unable to fully reconcile
the fees received to the FOIA case files or the master file because of incomplete payee
information, single payments for more then one FOIA request, and payments received in
a different fiscal year then the fiscal year the request was submitted.

In addition, we were unable to determine with any assurance that fees assessed to
requesters are being collected. Our review of the case files for some cases showed that
requesters were given estimates of fees that the requester agreed to pay, but no indication
in the case files that the fees were received as discussed above. The OMB guidelines
provide for and Commission rules state that processing of FOIA requests may be denied
if fees were not paid on a prior request.

Procedures are needed to accurately report fees in the annual report. These procedures
should include provisions to ensure that FOIA requesters assessed fees, do in fact pay
them.

Recommendation 3 We recommend that the Office of the Secretary and Office of
                 Finance establish procedures for accounting for FOIA fees. Those
                 procedures should include providing the Office of Finance with a
                 copy of the correspondence to the requester assessing the fees to
                 be paid. The procedures should also include a process to
                 periodically follow up on non-payment of fees. In addition, the
                 Office of the Secretary should obtain from the Office of Finance
                 the amount of fees actually collected during the fiscal year for
                 inclusion in its annual report to the Department of Justice.


       D. OTHER RELATED MATTERS

               1.     Electronic FOIA Requests


The FOIA does not require agencies to have a capability to receive FOIA requests via e-
mail through the Internet. The Office of Information and Privacy, Department of Justice,
has encouraged agencies to explore their capability to receive FOIA requests
electronically through the Internet and their web sites. The Department of Energy has
established a web site that incorporates an on-line form for submitting FOIA requests, as


                                            7                Office of Inspector General
                                                          U.S. International Trade Commission
                                                                              OIG-AR-01-01
have other agencies. The Commission should establish a capability to receive FOIA
requests through their web site.

Recommendation 4 We recommend that the Office of the Secretary develop a
                 capability for receiving FOIA requests using e-mail and using an
                 online form incorporated into the Commission’s web site.
                 Utilization of e-mail and the web site to receive FOIA requests
                 may require that 19 CFR 201 be revised.


       2.      Revision of 19 CFR 201.17 through 201.21

The general and permanent rules as published in 19 CFR 201 emphasize the FOIA
request procedures provided by FOIA SS (a)(3). The rules should be revised to highlight
the affirmative access provisions developed by the Commission in accordance with
provisions of FOIA (a)(1) & (a2) in the initial paragraphs of the rules. The existing rules
do not provide guidance on the information that is available in the electronic reading
room. Revising the rules may result in fewer formal FOIA requests for information that
is available on the web site or receipt of requests that are not germane to the functions
that the Commission performs.

Recommendation 5 We recommend that the General Counsel propose to amend rules
                 of practice and procedure at 19 CFR 201.17 through 201.21 to
                 emphasize the affirmative access provisions of FOIA SS (a)(1) &
                 (a)(2). The amendment of procedures should include how the
                 public can access the electronic reading room and a description of
                 the information that is available on it.

V.     SUMMARY OF CONCLUSIONS AND RECOMMENDATIONS

As summarized in the Appendix, the Commission was in general compliance with E-
FOIA requirements during the period reviewed. The only exception noted was a failure to
request a time limit extension for responses to a few FOIA requests.

To improve the        Commission’s     E-FOIA     program,   we    make     the   following
recommendations:

       1. We recommend that the Office of the Secretary publish information required
          by FOIA SS (a)(1) in the Federal register annually. Information on the
          availability of the web site and its contents should be included.

       2. We recommend that the Office of the Secretary notify the requester of
          circumstances requiring additional time beyond 20 working days and
          document the reasons in the file.




                                            8                Office of Inspector General
                                                          U.S. International Trade Commission
                                                                      OIG-AR-01-01



3. We recommend that the Office of the Secretary and Office of Finance
   establish procedures for accounting for FOIA fees. Those procedures should
   include providing the Office of Finance with a copy of the correspondence to
   the requester assessing the fees to be paid. The procedures should also include
   a process to periodically follow up on non-payment of fees. In addition, the
   Office of the Secretary should obtain from the Office of Finance the amount
   of fees actually collected during the Fiscal year for inclusion in its annual
   report to the Department of Justice.

4. We recommend that the Office of the Secretary develop a capability for
   receiving FOIA requests using e-mail and an online form incorporated into the
   Commission’s web site. Utilization of e-mail and the web site to receive FOIA
   requests may require that 19 CFR 201 be revised.

5. We recommend that the General Counsel propose to amend rules of practice
   and procedure at 19 CFR 201.17 through 201.21 to emphasize the affirmative
   access provisions of FOIA SS (a)(1) & (a)(2). The amendment of procedures
   should include how the public can access the electronic reading room and a
   description of the information that is available on it.




                                    9                Office of Inspector General
                                                  U.S. International Trade Commission
                                                         OIG-AR-01-01




                               APPENDIX A


          E-FOIA Requirements and Commission Compliance
EFOIA Amendment
to 5 U.S.C. § 552
Section/Subsection                         Commission
                      Required Action      Compliance
§ 552 (a)(2)(D)      Make available copies of all   In Compliance:
                     records which have been        Information can be found in
                     requested and released and     the electronic reading room
                     which the agency               on the Commission’s
                     determines are likely to       website.
                     become the subject of
                     subsequent requests.
§ 552 (a)(2)(E)      1) Create a general index      1) In Compliance:
                         of the records referred    The Index is on the web site
                         to in (D) and make         and it includes records from
                         available by computer,     (D).
                         by Dec. 31, 1999.

                     2) Make all records            2) In Compliance:
                        referred to in this         The electronic reading room
                        subsection and created      contains the required
                        on or after November 1,     records.
                        1996, available by
                        electronic means within
                        one year.

§ 552 (a)(3)(B)      Provide the record in any      In Compliance:
                     form or format the person      The ITC received a single
                     requests if the form or        request for information in a
                     format is readily              Word Perfect format, and
                     reproducible in such a form.   provided that information
                     Each agency shall use          on disk.
                     reasonable means to keep
                     records available in such
                     forms.
§ 552(a)(3)(C)       Agency shall make              In Compliance:
                     reasonable efforts to search   The Commission has
                     for records in electronic      provided materials in
                     form.                          electronic form.
                                                                OIG-AR-01-01

§ 552 (a)(6)(A)(i)         Determine within 20 days        Overall Compliance:
                           of receiving a request what     4 out of 210 responses were
                           action on the request will be   3-5 days late.
                           taken.
§ 552(a)(6)(B)(i) & (ii)   May extend (A)(i) time          Not in Compliance:
                           limit with notice to the        Did not ask for additional
                           party.                          time in the 4 cases above.

§ 552(a)(6)(E)(i)          Promulgate regulations for      In Compliance:
                           providing expedited             No requests have asked for
                           processing of requests for      expedited processing. The
                           records in cases of             ITC has created rules and
                           compelling need and other       procedures as codified in 19
                           cases as determined by the      CFR 201.17(b), to deal with
                           agency.                         any future requests.

§ 552(a)(6)(E)(ii)         Determination and notice of     In Compliance:
                           expedited processing must       Procedures found in 19
                           be made within 10 days. A       CFR 201.17(b)
                           procedure must be
                           developed for expedited
                           processing.

§ 552(e)(1)                Submit a report to the          In Compliance:
                           Attorney General on or          The reports are being
                           before February 1st of each     submitted.
                           year.

§ 552(e)(2)                Make each report required       In Compliance:
                           by (e)(1) available to the      The annual reports are
                           public, including by            available on the website in
                           electronic means.               the electronic reading room.

§ 552 (g)                  Prepare and make available      In Compliance:
                           a guide for requesting          The guide has been
                           materials including an          developed and is on the web
                           index, a description of         site.
                           major information and a
                           record locator, and a
                           handbook.
